No. 20-

PETER J. SCHAFFER AND AUTHENTIC ATHLETIX, L.L.C.,
Petitioners,
V.

JOEY LONG,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth
Circuit
PETITION FOR A WRIT OF CERTIORARI
NICHOLAS JAMES DEAVER
Counsel of Record
KAREN HANNAH WHEELER
JAMI ALLISON MAUL
WHEELER LAW, P.C.
5690 DTC BOULEVARD,
SUITE 240E
GREENWOOD VILLAGE, CO
80111
(303) 221-2787
nicholas@wheeler5280.com
Counsel for Petitioners

i
QUESTIONS PRESENTED
This Court has stated that while the
requirements for a court to exercise personal
jurisdiction are born out of rights provided to
Defendants by the Constitution of the United States,
a defendant may waive that right. See Insurance Corp.
of Ireland, Ltd. v. Compagnie des Bauxites de Guinee,
456 U.S 694, 703 (1982). Courts have developed tests
to determine whether a defendant has waived the
right and the extent of such waiver in terms of the
scope of appellate review. However, this Court has
never weighed in on this matter, and therefore the
jurisdictions are not uniform, which has resulted in
certain defendants being allowed less constitutional
protection based on the jurisdiction in which they are
sued. The question presented therefore, is:
1. Does a full litigation of the merits of a personal
jurisdictional challenge sufficiently preserve
the issue for full review on appeal?
This Court has held that a court may exercise
specific jurisdiction over an out-of-state defendant
only if there is “an affiliation between the forum and
the underlying controversy, principally, an activity or
occurrence that takes place in the forum state,” and
that, “[w]hen there is no such connection, specific
jurisdiction is lacking regardless of the extent of a
defendant’s unconnected activities in the State.”
Bristol-Myers Squibb Co. v. Superior Court of Cal.,
137 S. Ct. 1773, 1781 (2017) (quotation marks and
brackets omitted).

ii
In this case, the Court handed down the BristolMyers Squibb Co., opinion during litigation, after the
District Court had ruled on Petitioner’s motion to
dismiss for lack of subject matter jurisdiction, but
before trial, verdict, and appeal. The parties below
fully briefed the effect of the Court’s holding in BristolMyers Squibb to the United States Court of Appeals
for the Ninth Circuit. The Court of Appeals did not
consider the Bristol-Myers Squibb Co. opinion
whatsoever in its analysis and opinion. The question
presented is:
2. Did the Ninth Circuit err by not considering
this Court’s recent ruling in Bristol-Myers
Squibb?

iii
PARTIES TO THE PROCEEDING
Peter Schaffer, Petitioner on review, was an
appellant below and a defendant in the trial court.
Authentic Athletix, LLC, Petitioner on review,
was an appellant below and a defendant in the trial
court.
Joey Long, Respondent on review, was the
appellee below and the plaintiff in the trial court.

iv
RULE 29.6 DISCLOSURE STATEMENT
Authentic Athletix, LLC, is a Colorado limited
liability company in good standing. It has no parent
company nor does a publicly held company own 10%
or more of the corporation’s stock.

v
STATEMENT OF RELATED PROCEEDINGS
Joey Long v. Authentic Athletix, LLC and Peter J
Schaffer, Ninth Circuit Court of Appeals, Case No.
18-17061.
Joey Long v. Authentic Athletix, LLC, Peter Schaffer,
United States District Court for the Northern
District of California, D.C. No. 3:16-cv-03129-JSC.

vi
TABLE OF CONTENTS
Page
QUESTION PRESENTED ........................................i
PARTIES TO THE PROCEEDING ....................... iii
RULE 29.6 DISCLOSUE STATEMENT ................ iv
RELATED PROCEEDINGS..................................... v
TABLE OF AUTHORITIES .................................... xi
OPINIONS BELOW ................................................. 1
JURISDICTION........................................................ 2
CONSTITUTIONAL PROVISION INVOLVED ...... 2
STATEMENT OF THE CASE .................................. 2
REASONS FOR GRANTING THE PETITION ....... 4
I. The Decision of the Court Below
Exemplifies a Widening Split Among
Federal Courts of Appeal .............................. 5
A. The Question of Waiver of a
Personal Jurisdiction Challenge,
and the Effects on Appeal, Have Led
Different Courts to Different
Standards .................................................. 5
1. Certain Uniform Rules Provide
Certainty to Litigants. ........................ 6
2. The Circuits Disagree as to the
Extent of Preservation Created
by a Full Litigation of the Merits

vii
of a Personal Jurisdictional
Challenge via a Motion to
Dismiss. ............................................... 9
a. The Ninth Circuit Follows a
Standard that Results in a
Partial Preservation of the
Objection when Raised Only
in a Motion to Dismiss. ................ 10
b. The D.C. Circuit Standard
Contemplates
that
Full
Litigation of the Objection
via a Motion to Dismiss Fully
Preserves the Issue for
Appeal. .......................................... 12
c. Similar Defendants Would
Be Afforded Substantially
Different
Protections,
depending on in which
Circuit a Plaintiff Has
Brought Suit. ................................ 14
B. These Different Standards Lead to
Some Courts Affording Defendants
Fewer Constitutional Protections .......... 16
1. Clear Principles Provide the
Framework of Appellate Review.
............................................................ 16
2. If the Objection to Personal
Jurisdiction Is Preserved, the
Appellate Court Should Review

viii
the Entire Factual Record,
Contrary to the Ninth Circuit’s
Peterson Holding................................ 18
II. The Failure of the Courts Below to
Consider this Court’s Recent Ruling in
Bristol-Myers Squibb has Improperly
Deprived Petitioners of the Protections
of the Due Process Clause of the
Fourteenth Amendment .............................. 20
A. This Court’s Holding in BristolMyers has Clear Application to this
Case, and the Ninth Circuit Should
Have Considered It ................................. 21
1. Bristol-Myers Further Restricts
a Court’s Exercise of Personal
Jurisdiction Over an Out-ofState Defendant................................. 22
a. Contract
Cases
Create
Unique Challenges to the
Determination
of
the
Propriety
of
Exercising
Personal Jurisdiction. .................. 24
b. Bristol-Myers Makes Clear
that the Contacts that
Constitute
Purposeful
Availment Must Be the Same
Contacts that Led to the
Controversy. ................................ 26

ix
2. The Test Used by the Ninth
Circuit to Determine that the
District Court Could Exercise
Personal
Jurisdiction
Over
Petitioners Fails to Take into
Account the Holding in BristolMyers. ................................................. 28
a. In Light of Bristol-Myers, the
First Schwarzenegger Prong
Defines
Purposeful
Availment too Broadly. ................ 29
b. Schwarzenegger’s
Second
Prong Also Ignores the
Holding in Bristol-Myers.............. 31
B. As This Case Shows, This Court’s
Intervention Is Necessary to Clarify
when a Court May Exercise
Personal Jurisdiction Over an Outof-State Defendant in a Breach of
Contract Case.......................................... 32
CONCLUSION........................................................ 35
APPENDIX
APPENDIX A – United States Court of
Appeals for the Ninth Circuit Opinion ........ 1a
APPENDIX B – District Court Order on
Motion for Judgment Notwithstanding
the Verdict .................................................... 5a

x
APPENDIX C – District Court Order on
Motion to Dismiss ...................................... 17a
APPENDIX D – Day 2 of Trial Transcript
Excerpts ...................................................... 40a

xi
TABLE OF AUTHORITIES
Cases
Bristol-Myers-Squib Co. v. Superior
Court of California, San Francisco
County,
137 S.Ct. 1773 (2017) ................................ passim
Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985) ................................... passim
Goodyear Dunlop Tires Operations, S.A. v.
Brown,
564 U.S. 915 (2011) ..................... 6, 22, 23, 24, 28
Helicopteros Nacionales de Colombia, S.A.
v. Hall,
466 U.S. 408 (1984) ............................... 22, 24, 28
Insurance Corp. of Ireland, Ltd. v.
Compagnie des Bauxites de Guinee,
456 U.S 694 (1982) .......................................i, 5, 6
International Shoe Co. v. Washington,
326 U.S. 310 (1945) ................................. 4, 22, 24
Shaffer v. Heitner,
433 U.S. 186 (1977) ............................................. 6
Walden v. Fiore,
571 U.S. 277 (2014) ......................... 22, 23, 24, 28
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) ............................... 22, 24, 29
Aly v. Hanzada for Import and Export Co.,
LTD,
864 F.3d 844 (8th Cir. 2017) ............................... 9

xii
Boulger v. Woods,
917 F.3d 471 (6th Cir. 2019) ........................... 7, 8
Brownlow v. Aman,
740 F.2d 1476 (10th Cir. 1984) ........................... 9
Chatman-Bey v. Thornburgh,
864 F.2d 804 (D.C. Cir. 1988) ............................. 7
Continental Bank, N.A. v. Meyer,
10 F.3d 1293 (7th Cir. 1993) ............................... 7
Epps v. Stewart Information Services Corp.,
327 F.3d 642 (8th Cir. 2003) ............................. 17
Grayson v. Anderson,
816 F.3d 262 (4th Cir. 2016) ............................. 17
Hamilton v. Atlas Turner,
197 F.3d 58 (2d Cir. 1999) ................................... 8
Hedeen Int’l, LLC v. Zing Toys, Inc.,
811 F.3d 904 (7th Cir. 2016) ............................... 7
Mobile Anesthesiologists Chicago, LLC v.
Anesthesia Associates of Houston
Metroplex, P.A.,
623 F.3d 440 (7th Cir. 2010) ............................... 8
Northern Laminate Sales, Inc. v. Davis,
403 F.3d 14 (1st Cir. 2005) ................................ 17
PaineWebber, Inc v. Chase Manhattan
Private Bank (Switzerland),
260 F.3d 453 (5th Cir. 2001) .............................. 9
Peterson v. Highland Music, Inc.,
140 F.3d 1313 (9th Cir. 1998) ................... passim

xiii
Schwarzenegger v. Fred Martin Motor Co.,
374 F.3d 797 (9th Cir. 2004) .......... 29, 30, 31, 32
Shatsky v. Palestine Liberation
Organization,
955 F.3d 1016 (D.C. Cir. 2020) ................. passim
Sinatra v. National Enquirer, Inc.,
854 F.2d 1191 (9th Cir. 1988) ..................... 16, 17
Waldman v. Palestine Liberation
Organization,
835 F.3d 317 (2d Cir. 2016) ............................. 6, 9
Yeldell v. Tutt,
913 F.2d 533 (8th Cir 1990) ................................ 8
Statutes
28 U.S.C. § 1257(a) ................................................. 2
Rules
Fed.R.Civ.P. 12(h)(1) ............................................ 7, 9
Constitutional Provision
U.S. Const. amend. XIV ............................................ 2

No. 20-

PETER J. SCHAFFER AND AUTHENTIC ATHLETIX, L.L.C.,
Petitioners,
V.

JOEY LONG,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth
Circuit
PETITION FOR A WRIT OF CERTIORARI
Peter Schaffer and Authentic Athletix, LLC
respectfully petition for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Ninth Circuit in this case.
OPINIONS BELOW
The opinion from the United States Court of
Appeals was unpublished and unreported. Pet.App.
1a-4a. The rulings of the United States District Court
for the Northern District of California were also
unpublished and unreported. Pet.App. 5a-16a; 17a39a.
1

2

JURISDICTION
On Thursday March 19, 2020, this Court issued
an order extending the deadline to file any petition for
writ of certiorari due on or after March 19, 2020 to 150
days from the date of the lower court judgment. The
United States Court of Appeals for the Ninth Circuit
entered judgment on April 20, 2020. This Court’s
jurisdiction rests on 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISION INVOLVED
The Due Process Clause of the Fourteenth
Amendment, U.S. Const. amend. XIV, § 1, provides:
“[N]or shall any State deprive any person
of life, liberty, or property, without due
process of law.”
STATEMENT OF THE CASE
Respondent filed suit seeking compensation
based on an alleged agreement that was purportedly
entered in June 2010. Pet.App. 18a. Respondent
sought compensation based on commissions from an
NFL player who he claims to have recruited to
Petitioners pursuant to that alleged agreement.
Pet.App. 18a-21a.
That NFL player, the only player Petitioners
signed for which Respondent claimed compensation,
disputed by Petitioners, is Brandon Browner
(“Browner”). Petitioner met Long while he lived in
Colorado in 2006. Pet.App. 46a-47a. Browner signed
the Standard Representation Agreement (“SRA”)

3
while domiciled and present in Canada. At the trial,
Respondent acknowledged that Browner was in
Canada at the time he signed the SRA. Pet.App. 45a.
In addition, Respondent stated that he was not even
aware that Player had signed that SRA Pet.App. 45a.
At no time did the Player ever play professional
Football in California. At all times relevant Player
played for the Calgary Stampeders (CFL), Seattle
Seahawks (NFL), New England Patriots (NFL) and
the New Orleans Saints (NFL). Petitioners at no time
engaged in any business in California, have no
contacts with California and not only did Player sign
the SRA in Canada, Player never played for any
California team or earned any money in California
during his NFL career.
Petitioners made a timely motion to Dismiss for
a lack of personal subject matter jurisdiction after
service of the complaint. The District Court denied the
motion using pre-Bristol-Myers Squibb standards.
Pet.App. 17a-26a. Prior to the trial, yet subsequent to
the court’s denial of the Petitioners’ Motion for
Judgment Notwithstanding the Verdict, the United
States Supreme Court decided Bristol-Myers Squibb,
which changed the law and criteria for personal
subject matter jurisdiction. The District Court denied
the Petitioner’s Motion JNOV for a lack of personal
subject matter jurisdiction without discussion of
Bristol-Myers Squibb. Pet.App. 5a-16a Petitioners
appealed to the United States Court of Appeal for the
Ninth Circuit. The Ninth Circuit affirmed the District
Court. Pet.App. 1a-2a. The Ninth Circuit’s affirmation
looked only at the state of the evidence as it existed at
the time Petitioners moved to dismiss, without
consideration of the Court’s recent holding in BristolMyers. Pet.App. 2a.

4
REASONS FOR GRANTING THE PETITION
This Court, through nearly seventy years of
jurisprudence, since the landmark case of
International Shoe Co. v. Washington, 326 U.S. 310
(1945), has articulated clear limitations on a court’s
exercise of jurisdiction over an out-of-state defendant.
The Court has also made clear, even before
International Shoe, that while restrictions on the
exercise of jurisdiction on an out-of-state defendant
derive from the Due Process Clause of the Fourteenth
Amendment to the United States constitution, the
protection the Due Process Clause offers is personal to
the defendant. As a personal right, a defendant may
waive the right through action or, in some cases, in
action.
This case represents an intersection of those
concepts and invites the Court to offer much needed
clarification. Absent the Court’s guidance, courts
around the country have created different standards
of establishing how a defendant preserves his or her
objection to personal jurisdiction and, more
importantly, how appellate courts review the
jurisdictional determination of the trial courts. Thus,
despite this Court’s clear attempts to interpret the
Due Process Clause of the Fourteenth Amendment
into a uniform formula for establishing personal
jurisdiction over an out-of-state defendant, the
amount of protection the Fourteenth Amendment
affords an out-of-state defendant varies greatly
depending on in which state the plaintiff brought suit.
The decision of the court below exemplifies this
unacceptable reality. Apparently utilizing the Ninth
Circuit’s own standard for review, the district court

5
completely ignored one of the recent decisions of this
Court on the subject: Bristol-Myers-Squib Co. v.
Superior Court of California, San Francisco County,
137 S.Ct. 1773 (2017). By ruling against Petitioner
without considering the Court’s holding in BristolMyers-Squib and Petitioner’s arguments related to
that holding, the decision of the Court below has
robbed Petitioner of a proper adjudication of his
constitutionally protected right not to be haled into
court in a state with which he has insufficient
minimum contacts. This Court should take this
opportunity to clarify a national standard, so that
one’s constitutional protections are not dependent on
where a third party decides to bring suit.
I. The Decision of the Court Below Exemplifies
a Widening Split Among Federal Courts of
Appeal.
There is no question that an out-of-state
defendant can waive or otherwise fail to preserve an
objection to personal jurisdiction. See Insurance Corp.
of Ireland, Ltd. v. Compagnie des Bauxites de Guinee,
456 U.S 694, 703 (1982) (“Because the requirement of
personal jurisdiction represents first of all an
individual right, it can, like other such rights, be
waived.”). However, courts across the country have
split in determining both what is sufficient to
constitute a waiver, and the standard of review of
challenges to personal jurisdiction on appeal. These
two issues are inextricably intertwined.
A. The Question of Waiver of a Personal
Jurisdiction Challenge, and the Effects on

6
Appeal, Have Led Different Courts to
Different Standards.
Many of the rules regarding properly raising
and maintaining an objection to personal jurisdiction
are universally acknowledged and applied. That said,
courts have taken different approaches in the key area
of determining what exactly it means to “preserve” the
objection.
1. Certain
Uniform
Rules
Certainty to Litigants.

Provide

Ultimately, the restriction of a court’s ability to
exercise personal jurisdiction over certain defendants
derives from the Due Process Clause of the
Fourteenth Amendment of the United States
Constitution. Goodyear Dunlop Tires Operations, S.A.
v. Brown, 564 U.S. 915, 923 (2011) (citing Shaffer v.
Heitner, 433 U.S. 186, 207 (1977)). While the
Fourteenth Amendment can act as a restriction of a
court’s ability to exercise of power beyond the
geographic borders of the state in which it sits, it does
so based on the individual liberty interest it bestows
on the defendant: to be subject only to lawful power.
Waldman v. Palestine Liberation Organization, 835
F.3d 317, 328 (2d Cir. 2016). As protection of an
individual’s liberty, rather than a restriction on the
sovereignty of the court, as is the case with subject
matter jurisdiction, a defendant can waive the
requirement of personal jurisdiction like any other
individual right. Insurance Corp. of Ireland, Ltd. v.
Compagnie des Bauxites de Guinee, 456 U.S 694, 702–
03 (1982). Thus, how to properly assert and protect

7
this right is an important consideration for a litigant
sued in a foreign state.
Providing guidance on this issue, the Rules of
Federal Procedure require that a party contesting
jurisdiction must raise the objection either via a Rule
12 motion or as an affirmative defense in the party’s
responsive pleading. See Fed.R.Civ.P. 12(h)(1). If a
party fails to follow this rule, there is no doubt that
the party has waived its objection to personal
jurisdiction. See Chatman-Bey v. Thornburgh, 864
F.2d 804, 813 (D.C. Cir. 1988). However, courts also
universally recognize that a party, having properly
raised the objection in an answer or motion to dismiss,
may subsequently waive that objection through its
conduct, or lack thereof, during the proceeding. See,
e.g., Boulger v. Woods, 917 F.3d 471, 477 (6th Cir.
2019); and Hedeen Int’l, LLC v. Zing Toys, Inc., 811
F.3d 904, 906 (7th Cir. 2016). Therefore, while the
initial raising of the objection is necessary, it is not
necessarily in and of itself sufficient.
The simple reason that courts universally
recognize that a defendant can waive personal
jurisdiction, either through action or inaction, is one
of fairness. See, e.g., Peterson v. Highland Music, Inc.,
140 F.3d 1313, 1318 (9th Cir. 1998); Continental
Bank, N.A. v. Meyer, 10 F.3d 1293, 1296–1297 (7th
Cir. 1993). A litigant should not be allowed, for
example, to place an objection to personal jurisdiction
in its answer, and let the issue rest, never filing a
motion or mentioning it again while the defendant
waits to see if can obtain a favorable outcome on the

8
merits, and only bringing up the issue again on motion
or appeal after an unfavorable verdict. See Boulger,
917 F.3d at 447–78; see also Yeldell v. Tutt, 913 F.2d
533, 539 (8th Cir 1990). Thus, a defendant who raises
the defense in an answer, but fails to file a motion to
dismiss or otherwise fails to raise the issue before
appeal will rightly have forfeited the objection.
Yeldell, 913 F.2d at 539. Likewise, a defendant who
raises the defense in a motion and waits a
considerable amount of time before litigating the
objection, despite opportunities to do so, will suffer the
same fate. See Hamilton v. Atlas Turner, 197 F.3d 58,
61 (2d Cir. 1999) (holding defendant forfeited personal
jurisdiction objection after moving to dismiss for the
first time four years after raising the defense in the
answer).
In addition to a defendant lying in wait to
spring a jurisdictional trap, as outlined above, courts
do not countenance a defendant who, after raising the
issue of personal jurisdiction early in the proceedings,
undertakes actions above and beyond a defense on the
merits that indicate to the opposing party that it no
longer contests jurisdiction, thus inducing the other
party to cease preparations to litigate the matter. See
Mobile Anesthesiologists Chicago, LLC v. Anesthesia
Associates of Houston Metroplex, P.A., 623 F.3d 440,
443 (7th Cir. 2010) (“To waive or forfeit a personal
jurisdiction defense, a defendant must give a plaintiff
a reasonable expectation that it will defend the suit on
the merits or must cause the court to go to some effort
that would be wasted if personal jurisdiction were
later found lacking.”).

9
At the other end of the spectrum, all courts
agree that a defendant who, having raised the defense
pursuant to Fed.R.Civ.P. 12(h)(1), continues to raise
and litigate the defense at every opportunity, clearly
has preserved his or her defense for appellate review.
See, e.g., Waldman v. Palestine Liberation
Organization, 835 F.3d 317, 328 (2d Cir. 2016). The
middle ground, between the two ends of the spectrum
described above, occurs when a defendant raises the
objection, timely litigates the issue, loses, and
proceeds to defend the case on the merits without
engaging in the kind of conduct that would waive the
objection. See, e.g., Shatsky v. Palestine Liberation
Organization, 955 F.3d 1016, 1032 (D.C. Cir. 2020);
Aly v. Hanzada for Import and Export Co., LTD, 864
F.3d 844, 848–49 (8th Cir. 2017); PaineWebber, Inc v.
Chase Manhattan Private Bank (Switzerland), 260
F.3d 453, 460 (5th Cir. 2001); Peterson v. Highland
Music, Inc., 140 F.3d 1313, 1319 (9th Cir. 1998);
Brownlow v. Aman, 740 F.2d 1476, 1483 n. 1 (10th Cir.
1984). The courts agree that full litigation of an
objection to personal jurisdiction in a motion to
dismiss preserves the issue on appeal to some extent;
however, this Court’s intervention is required because
they do not agree as to what extent the issue is
preserved.
2. The Circuits Disagree as to the Extent
of Preservation Created by a Full
Litigation of the Merits of a Personal
Jurisdictional Challenge via a Motion
to Dismiss.

10
The question of the extent of preservation has
not been well developed by the various circuits below.
The Ninth Circuit, in Peterson v. Highland Music,
Inc., 140 F.3d 1313 (9th Cir. 1999), is the only Circuit
that has explicitly ruled on this issue. However, that
holding has been implicitly challenged by a recent
case out of the District of Columbia Circuit, Shatsky
v. Palestinian Liberation Organization, 955 F.3d 1016
(D.C. Cir. 2020). The decision in Shatsky represents
the better standard, and this Court should take to
opportunity to adopt that standard as a means of
resolving the lack of clarity and uniformity regarding
this important issue.
a. The Ninth Circuit Follows a
Standard that Results in a Partial
Preservation of the Objection when
Raised Only in a Motion to Dismiss.
The Ninth Circuit has essentially split the
difference, holding that a defendant does not waive his
objection by failing to renew it throughout the
litigation, but when brought before the appellate court
for review, the appellate court will only review the
jurisdictional argument under the standard
applicable to the last time it was raised. See Peterson
v. Highland Music, Inc., 140 F.3d 1313, 1319 (9th Cir.
1998). In Peterson, the Ninth Circuit was faced with
determining two questions: did the defendant waive
its objection to personal jurisdiction, and if not, under
what standard should the appellate court review the
question. Id.

11
The Peterson Court answered the first question
by reviewing the type of conduct that the rule that a
party can waive a defense to jurisdiction looks to
avoid, such as “sandbagging,” by initially raising the
personal jurisdiction issue in a motion to dismiss,
“deliberately refraining from pursuing it any further
when his motion is denied in the hopes of receiving a
favorable disposition on the merits, and then raising
the issue again on appeal only if he were unhappy
with the district court’s ultimate conclusion[.]” Id. at
1318. The court noted that in the case before it, there
was no evidence, or even argument, that the
defendant engaged in such deliberate and strategic
behavior. Id. Instead, the court held that in cases
where a defendant raises a personal jurisdiction
objection in a motion to dismiss, the defendant has
preserved their objection to personal jurisdiction,
absent the existence of factors that favor a finding of
waiver. Id. at 1319.
Having answered the first question, the
Peterson court moved on to determining “what
evidentiary standard the district court’s exercise of
personal jurisdiction should be measured against,
given the posture in which the claim reaches us on
appeal.” Id. The Court noted that there were
essentially two different standards at play, the prima
facie standard that Plaintiff had to meet to survive a
motion to dismiss, and the preponderance of the
evidence standard that the Plaintiff would have had
the burden of meeting had the case gone to trial. Id.
In weighing these two options, the court noted that
the purpose of the general rule that a party must raise

12
a defense at trial or waive the right to pursue it on
appeal is based on the proposition that the parties
should develop a full record on all contested issues. Id.
The court reasoned that once the jurisdictional issue
was determined in the motion to dismiss, and never
brought up again, the plaintiff in the case would have
had little reason to develop the jurisdictional facts at
trial. Id. Thus, the court held that since the
defendants “failed to contest the issue further after
losing their motion to dismiss, defendants may appeal
only the district court’s holding that plaintiff made out
a prima facie case sufficient to support an exercise of
personal jurisdiction.” Id. In reaching this holding, the
Ninth Circuit adopted a sort of semi-preservation,
preserving review of the issue only to the extent the
defendant last raised it. In order to obtain a full
review of whether a plaintiff proved the jurisdictional
facts by a preponderance of the evidence, a defendant
must necessarily raise the issue at every opportunity.
b. The
D.C.
Circuit
Standard
Contemplates that Full Litigation of
the Objection via a Motion to
Dismiss Fully Preserves the Issue
for Appeal.
The D.C. Circuit recently decided Shatsky v.
Palestine Liberation Organization, 955 F.3d 1016
(D.C. Cir. 2020), and reached a conclusion much more
protective of a defendant’s due process right than the
Ninth Circuit’s holding in Peterson. In Shatsky, the
D.C. Circuit recognized that once the objection to
personal jurisdiction is raised and litigated to a
conclusion via a motion to dismiss, the defendant need

13
not continue raising the issue for fear of waiving the
objection. Shatsky v. Palestinian Liberation
Organization, 955 F.3d 1016, 1032 (D.C. Cir 2020).
The D.C. Circuit then held that once this objection is
preserved, a defendant can then subsequently waive
the objection to personal jurisdiction only by taking
some specific action that is inconsistent with the goodfaith preservation of the defense. Id. On the surface,
the Shatsky decision seems perfectly in line with the
Ninth Circuit’s Peterson opinion; the D.C. Circuit even
cites to Peterson to support its holding as to what a
defendant must do to waive the objection. See id. The
cases, however, differ in one important aspect. Where
Peterson went on to hold that since the defendants
“failed to contest the issue further after losing their
motion to dismiss, defendants may appeal only the
district court’s holding that plaintiff made out a prima
facie case sufficient to support an exercise of personal
jurisdiction[,]” Peterson, 140 F.3d 1319, Shatsky
refrains from punishing the defendants for not
relitigating personal jurisdiction at every possible
juncture. In fact, the language used by the D.C.
Circuit would indicate that it would not endorse
Peterson’s second holding.
The Shatsky court noted that the defendants:
raised personal jurisdiction in a motion
to dismiss at the outset of the case and
litigated it fully before the district court,
which considered and rejected the
personal jurisdiction challenge. And
when the [defendants] asked for a

14
written explanation of the ruling, the
court denied that too. At that point,
nothing in the law required the
[defendants] to continue beating a dead
horse.
Shatsky, 955 F.3d at 1032 (emphasis added). The
defendants could pivot to defending the case on the
merits without losing their right to press the
jurisdictional objection on direct review. Id. This is a
key departure from Peterson, as when a defendant is
in the Ninth Circuit, after he or she has fully litigated
a jurisdictional challenge via a motion to dismiss, the
law, as stated in Peterson, requires them to continue
beating the dead horse in order to preserve appellate
review of more than just whether or not the district
court correctly ruled on the motion to dismiss.
c. Similar Defendants Would Be
Afforded Substantially Different
Protections, depending on in which
Circuit a Plaintiff Has Brought Suit.
The fact that the Shatsky court, in reviewing
the merits of the defendants’ personal jurisdictional
challenge, appears to have reviewed the record de
novo, and not whether or not the district court
correctly denied the defendant’s motion to dismiss,
which is the analysis that a district court in the Ninth
Circuit would have undertaken, and in the instant
case, did in fact undertake, shows that the circuits are
not in agreement as to how to review these challenges.

15
The analysis undertaken by both the Peterson
and Shatsky courts, and the subsequent effect of those
analysis on the standard by which those courts
reviewed the jurisdictional challenges, illustrate how
the concept of preservation and waiver of a personal
jurisdiction challenge are inextricably intertwined.
Both courts concluded that the defendants preserved
their jurisdictional challenge. Peterson, 140 F.3d at
1319; Shatsky, 955 F.3d at 1032. However, the
Peterson court, by going on to hold that the defendant
could only challenge the decision made by the trial
court as to the defendant’s final objection, shows that
the Ninth Circuit allows degrees of preservation. See
Peterson, 140 F.3d at 1319. Essentially, in the Ninth
Circuit, one’s challenge to personal jurisdiction is only
preserved, as if in amber, in the procedural posture in
which it was last raised. Thus it is clear that in the
Ninth Circuit, if a defendant last raises his or her
objection to personal jurisdiction in the motion to
dismiss stage, the defendant has only partially
preserved the objection, as the defendant cannot
obtain a full review of whether the facts in the record
indicate that the plaintiff has established the court’s
personal jurisdiction. See id. 1319–20.
The D.C. Circuit, on the other hand, indicates
that once a defendant preserves the issue, the
defendant has fully preserved the issue, and the
appellate court conducts a de novo review, not just a
review to determine if the district court correctly ruled
on the motion to dismiss. See Shatsky, 955 F.3d at
1032, 1036. Thus, “preserving the issue for appeal”
which essentially means the defendant properly

16
raised and never subsequently waived the objection,
means different things based on geography. The D.C.
Circuit in Shatsky stated that once a defendant fully
litigated the personal jurisdiction issue in a motion to
dismiss that is denied by the court, “nothing in the law
required the [defendants] to continue beating a dead
horse.” Shatsky, 955 F.3d at 1032. However, it is clear
based on the District Court’s ruling on the Motion for
Judgment Notwithstanding the Verdict, and the
Ninth Circuit’s adoption of that ruling, that in the
Ninth Circuit, the law does require the defendant to
keep beating a dead horse.
B. These Different Standards Lead to Some
Courts Affording Defendants Fewer
Constitutional Protections.
The issue of preservation, and at what point
preservation occurs, has profound consequences on
appeal. As explained below, due to the fact that unlike
subject matter jurisdiction, which cannot be waived
and is therefore always reviewed de novo, a party can
waive personal jurisdiction, courts have struggled to
create a consistent procedural framework under
which to review challenges to personal jurisdiction.
1. Clear
Principles
Provide
Framework of Appellate Review.

the

The
burden
of
establishing
personal
jurisdiction falls on the plaintiff. Sinatra v. National
Enquirer, Inc., 854 F.2d 1191, 1194 (9th Cir. 1988).
When a defendant raises a challenge to personal
jurisdiction via a motion under Fed.R.Civ.P. 12(b)(2)

17
the plaintiff need only present enough facts to make a
prima facie establishment of personal jurisdiction.
Epps v. Stewart Information Services Corp., 327 F.3d
642, 647 (8th Cir. 2003). At this stage, the district
court accepts all of the plaintiff’s facts as true,
whether or not disputed, construes them in the light
most favorable to plaintiff, as well as any
uncontroverted facts presented by the defendant.
Northern Laminate Sales, Inc. v. Davis, 403 F.3d 14,
24 (1st Cir. 2005). However, all courts, even the Ninth
Circuit, agree that eventually the plaintiff must
establish the jurisdictional facts by a preponderance
of the evidence. See Grayson v. Anderson, 816 F.3d
262, 268 (4th Cir. 2016); Sinatra, 854 F.2d at 1194.
This is what causes issues on appellate review.
The existence of personal jurisdiction is a
question of law that appellate courts review de novo.
Shatsky, 955 F.3d at 1036. However, the key issue,
many times the dispositive issue, is exactly what the
appellate court is reviewing. Is the appellate court
reviewing de novo whether the plaintiff established
personal jurisdiction, prima facie, with all disputed
facts resolved in their favor, looking at only the record
available to the trial court when it made its
determination? Or is the appellate court reviewing the
entire record to determine whether the plaintiff
established
the
jurisdictional
facts
by
a
preponderance of the evidence? Usually, this decision
is made by the procedural posture of the case on
appeal. If the trial court granted a defendant’s 12(b)(2)
motion, then on review the appellate court is
necessarily limited to a review on the record made at

18
the time the trial court granted the 12(b)(2) motion in
order to determine whether the trial court came to the
correct legal conclusion in its determination of the
motion. Likewise, if the trial court grants a later
motion (such as a motion for summary judgment,
directed verdict, or a judgment notwithstanding the
verdict) the appellate court would review whether the
trial court came to the correct legal conclusions as to
those motions, using the record before the court at
that time and the preponderance of the evidence
standard. In both these instances, the issue is easy
because there is a legal motion granted at a specific
time which has specific standards. Where things
become tricky is when such a motion is never granted,
and the defendant raises the lack of personal
jurisdiction on appeal. In that case, how should the
appellate court view the record? The circuit split
regarding waiver, outlined above, has a role to play in
answering this question.
2. If
the
Objection
to
Personal
Jurisdiction
Is
Preserved,
the
Appellate Court Should Review the
Entire Factual Record, Contrary to the
Ninth Circuit’s Peterson Holding.
The Ninth Circuit says that the court should
review under the standard that existed in the trial
court at the last time the defendant made the personal
jurisdiction objection. Peterson, 140 F.3d at 1319. The
basis for this is that under that rule, the objection is
preserved in the last form in which it is raised.
However, this rule is inherently unfair, as it allows

19
the plaintiff to avoid his or her burden. The Ninth
Circuit in Peterson attempted to address fairness, but
in doing so focused only on what it perceived as the
unfairness that would result to the plaintiff if the
plaintiff were held to their burden of establishing
jurisdiction by a preponderance of the evidence if the
Plaintiff has no reason to expect that personal
jurisdiction will be at issue. This logic has two blind
spots.
First, a full litigation of the motion to dismiss,
sufficient to preserve the challenge for appeal, should
put the plaintiff on notice of the need to carry her
ultimate burden of proving personal jurisdiction by a
preponderance of the evidence. Second, Peterson does
not contemplate a situation where a defendant raises
the issue in a motion for dismiss, and again as a
motion for directed verdict after the close of the
plaintiff’s case. The plaintiff, relying on Peterson,
might have suspected that they need not put the
jurisdictional facts into evidence. However, if a
defendant were to re-raise the issue, a motion for
directed verdict would be the next logical step.
Generally, raising the issue in a motion for summary
judgment after a court has denied a motion to dismiss
on the issue would be an exercise in futility, as the
standards are nearly identical.
Therefore, despite Peterson’s attempts to do so,
it does not actually solve the problem of protecting
plaintiffs who do not think they need to prove
jurisdiction at trial. The cost of not solving this
problem is a restriction of a defendant’s constitutional

20
rights, which is made obvious in a specific situation.
That situation arises when new evidence comes to
light after the ruling on the motion to dismiss that
uncontrovertibly
establishes
that
personal
jurisdiction does not exist. In that case, even though
the defendant properly preserved his objection to
personal jurisdiction and the evidence clearly shows
that the court cannot exercise personal jurisdiction,
the appellate court would have no choice but to uphold
jurisdiction. Such a result would be manifestly unfair.
Conversely, the D.C. Circuit and other circuits
following rules similar to the one outlined in Shatsky,
say that once the objection is preserved and not
subsequently waived, the appellate court must review
the entire record to determine if the plaintiff met its
burden of establishing the court’s personal
jurisdiction over the defendant. This latter course is
more consistent with the constitutional protections
and policy regarding personal jurisdiction, and this
Court should adopt it; such a ruling would ensure that
a defendant’s constitutional protections are not
reduced by geographic chance.
II. The Failure of the Courts Below to Consider
this Court’s Recent Ruling in Bristol-Myers
Squibb has Improperly Deprived Petitioners
of the Protections of the Due Process Clause
of the Fourteenth Amendment.
This Court handed down its decision in Bristol
-Myers Squibb on June 19, 2017, just before trial in
the case giving rise to this petition. Petitioners argued
both in a Motion for Judgment Notwithstanding the

21
Verdict under Fed.R.Civ.P. 50 and on appeal that the
Bristol-Myers Squibb holding required a finding that
the District Court lacked personal jurisdiction over
the Petitioners. Despite the fact that the parties fully
briefed the issue, neither the District Court nor the
Ninth Circuit even considered the issue. Pet.App. 1a16a.
Much of the Court’s recent personal jurisdiction
jurisprudence involves tort cases. Guidance on the
determination of personal jurisdiction in a breach of
contract case has been sparse, despite the fact that
oftentimes the determination of what constitutes
“minimum contacts” with the forum in a breach of
contact case is a much more difficult analysis. The
Court should take the opportunity to clarify the
current personal jurisdiction rules in breach of
contract cases. At the very least, this Court should
reverse and remand to the Ninth Circuit to consider
the Bristol-Myers Squibb holding.
A. This Court’s Holding in Bristol-Myers has
Clear Application to this Case, and the
Ninth Circuit Should Have Considered It.
The Ninth Circuit’s decision in this case must
be reversed because it failed to consider this Court’s
decision in Bristol-Myers Squibb Co. v. Superior Court
of California, San Francisco County, 137 S.Ct. 1773
(2017), despite the fact that Petitioner raised the
issue, it was fully briefed, and is obviously applicable
to this action. Pet.App. 1a-4a. This Court should not
tolerate such a blatant disregard of its authority.

22
1. Bristol-Myers Further Restricts a
Court’s
Exercise
of
Personal
Jurisdiction Over an Out-of-State
Defendant.
For over seventy years the guiding light in the
determination of whether a court’s exercise of
personal jurisdiction comports with the United States
Constitution has been International Shoe Co. v.
Washington, 326 U.S. 310 (1945). In that case, the
Court held that due process required that “in order to
subject a defendant to a judgment in personam, if he
be not present in within the territory of the forum, he
have certain minimum contacts with it such that
maintenance of the suit does not offend traditional
notions of fair play and substantial justice.”
International Shoe, 326 U.S. at 316 (internal
quotations omitted).
Since 1945, the Court has continuously focused
the parameters of what “minimum contacts” satisfies
the standard set in in International Shoe. See, e.g.,
Walden v. Fiore, 571 U.S. 277 (2014); Goodyear
Dunlop Tires Operations, S.A. v. Brown, 564 U.S 915
(2011); Burger King Corp. v. Rudzewicz, 471 U.S. 462
(1985); Helicopteros Nacionales de Colombia, S.A. v.
Hall, 466 U.S. 408 (1984); and World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286 (1980). In
determining whether an out-of-state defendant has
minimum contacts, courts have looked to whether the
defendant has done some act by which he has
purposely availed himself of the privilege of
conducting activities within the forum state, thus

23
invoking the benefits and protections of its laws.
Goodyear Dunlop Tires Operations, S.A. v. Brown, 564
U.S. 915, 924 (2011). For a court to exercise
jurisdiction over an out-of-state defendant consistent
with due process, “the defendant’s suit-related conduct
must create a substantial connection with the forum
state.” Walden v. Fiore, 571 U.S. 277, 284 (2014)
(emphasis added). Importantly, the defendant’s
contacts must be with the forum state itself, not with
persons who reside there. Id. at 285.
The Court recently decided Bristol-Myers
Squibb v. Superior Court of California, San Francisco
County. In that case, the Court held that in order for
a court to exercise specific jurisdiction, the very
controversy at issue must arise out of or relate to the
defendant’s contacts with the forum. Bristol-Myers
Squibb Co. v. Superior Court of California, San
Francisco County, 137 S.Ct. 1773, 1780 (2017). Put
another way, there must be some affiliation or
connection between the forum and the underlying
controversy. Id. This Court in BMS made clear that a
court cannot rely on connections unrelated to the
controversy, no matter how deep or numerous, to
establish jurisdiction over an out-of-state defendant.
See id. at 1781. Instead, what establishes a court’s
jurisdiction is a “connection between the forum and
the specific claims at issue.” Id.
This Court also further defined the lens
through which a court must analyze questions of
specific jurisdiction. The decision in Bristol-Myers
explicitly established that the primary concern is the

24
burden on the defendant. Id. at 1780. Even if the
defendant is not inconvenienced at all by litigating in
the forum state, even if the forum state’s interest in
applying its laws are strong and sound, and even if the
forum state is the most convenient location, the Due
Process Clause, acting as an instrument of interstate
federalism, may sometimes act to divest a state of its
power to render a valid judgment. Id. at 1780–81.
Bristol-Myers, like many of the cases that make
up the Court’s jurisprudence on the issue, involves a
tort claim. See id. at 1778; see also Walden v. Fiore,
571 U.S. 277 (2014); Goodyear Dunlop Tires
Operations, S.A. v. Brown, 564 U.S 915 (2011);
Helicopteros Nacionales de Colombia, S.A. v. Hall, 466
U.S. 408 (1984); and World-Wide Volkswagen Corp. v.
Woodson, 444 U.S. 286 (1980). That said, the guiding
principle for the determination of personal
jurisdiction, whether the plaintiff’s claim lies in tort
or contract, is the minimum contacts analysis
articulated in International Shoe. The question that
Bristol-Myers raised, but that the Ninth Circuit failed
to consider, is when a claim is for a breach of a
contract, what contacts establish a substantial
connection to the forum state? The Court should take
this opportunity to clarify this important question.
Without clarification, courts will continue to
determine questions of constitutional importance in
an ad hoc and inconsistent manner.
a. Contract Cases Create Unique
Challenges to the Determination of
the
Propriety
of
Exercising
Personal Jurisdiction.

25
Applying Bristol-Myers to a breach of contract
action should focus the “sufficient minimum contacts”
inquiry on the connection between the breach itself
and the forum. Put another way, if the breach has no
connection to the forum, then a court cannot exercise
personal jurisdiction over the breaching party, even if
the parties contemplated that the non-breaching
party’s performance of the contract would occur in the
forum state for an extended period of time.
This Court has already determined that an
individual's contract with an out-of-state party alone
cannot automatically establish sufficient minimum
contacts in the other party's home forum. Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 478 (1985). As this
Court noted in Burger King, the:
Court long ago rejected the notion that
personal jurisdiction might turn on
‘mechanical’ tests, or on ‘conceptualistic
... theories of the place of contracting or
of performance.’ Instead, we have
emphasized the need for a ‘highly
realistic’ approach that recognizes that a
‘contract’
is
‘ordinarily
but
an
intermediate step serving to tie up prior
business negotiations with future
consequences which themselves are the
real object of the business transaction.’
Burger King, 471 U.S. at 478 (internal citations
omitted).

26
The Court in Burger King did also note that
“parties who reach out beyond one state and create
continuing relationships and obligation with citizens
of another state are subject to regulation and
sanctions in the other State for the consequences of
their activities.” Id. at 472–73. However, in the thirtyfive years since the Court ruled in Burger King, the
Court has continued to clarify and refine the
distinction between general and personal jurisdiction.
Thus, the Court’s directive in Burger King must be
read in the context of subsequent decisions. Most
importantly, this Court has recently limited the
exercise of personal jurisdiction.
b. Bristol-Myers Makes Clear that the
Contacts that Constitute Purposeful
Availment Must Be the Same
Contacts
that
Led
to
the
Controversy.
Burger King reiterated that a court can exercise
jurisdiction over a defendant in a breach of contract
case when the defendant purposely avails himself of
the privilege of conducting activities within the forum
state, invoking the benefits and protections of its laws.
Id. at 474–75. The Court’s more recent decisions,
however, exemplified by Bristol-Myers, require
further clarification of the exact context in which a
contracting party invokes the benefits and protections
of a forum’s laws, thus subjecting him or herself to
that forum’s jurisdiction.
As noted above, the Court in Burger King
recognized the importance of an approach that

27
acknowledges that a contract has a specific purpose,
or future consequences, to each party. See Burger
King, 471 U.S. at 478. The Court should take this
opportunity to refine that approach in light of its
recent jurisprudence.
The future consequences that are themselves
the object of a business transaction, referred to in
Burger King, are the performances of the parties,
which in turn provide each party that for which they
bargained. A breach of contract lawsuit obviously
arises from the alleged failure of one party to perform
the terms. With Bristol-Myers’s command that the
forum must have some connection to the underlying
controversy, see 137 S.Ct. at 1781, it follows that the
forum must have some connection to the specific terms
of the contract that were breached, as the breach of
those terms constitute the controversy. In other
words,, the facts of the breach, including the terms,
must include some purposeful contacts with the forum
by the defendant. For example, on one hand, if a
defendant breached a contract by failing to pay for a
product or service that originated in the forum, that
would be a purposeful contact with that forum which
would subject the defendant to the forum’s
jurisdiction. On the other hand, if the only connection
to the forum is the plaintiff’s voluntary and/or
fortuitous location when he or she performed the
contract, but the performance could have occurred
anywhere without any change in the results, that
would not be a connection with the forum that would
subject the breaching party to the forum court’s
jurisdiction.

28
This approach is consistent with the Court’s
prior holdings. In Burger King, the Court noted that
the franchise dispute (i.e., the factual issues of the
breach) grew directly out of a contract that had a
substantial connection with Florida. See Burger King,
471 U.S. at 479–480. Specifically, the Court noted that
the breaching party reached out beyond his own state
and “negotiated with a Florida corporation for the
purchase of a long-term franchise and the manifold
benefits that would derive from affiliation with a
nationwide organization.” Id. The breaching party’s
refusal, therefore, to make the required payments
under the contract, arose directly out of a contract
that clearly had a substantial connection to the forum.
The Court’s holding in Bristol-Myers, although based
in tort, is equally applicable to contract actions.
2. The Test Used by the Ninth Circuit to
Determine that the District Court
Could Exercise Personal Jurisdiction
Over Petitioners Fails to Take into
Account the Holding in Bristol-Myers.
The Court’s decision in Bristol-Myers is simply
the latest in the long line of decisions defining and
clarifying the scope of a court’s ability to exercise
personal jurisdiction over an out-of-state defendant.
Throughout the last 75 years, the Court has narrowed
and refined scope of jurisdiction, always focusing on
the out-of-state defendant. See, e.g., Walden v. Fiore,
571 U.S. 277 (2014); Goodyear Dunlop Tires
Operations, S.A. v. Brown, 564 U.S 915 (2011); Burger
King Corp. v. Rudzewicz, 471 U.S. 462 (1985);
Helicopteros Nacionales de Colombia, S.A. v. Hall, 466

29
U.S. 408 (1984); and World-Wide Volkswagen Corp. v.
Woodson, 444 U.S. 286 (1980). The Ninth Circuit’s
failure to even consider Bristol-Myers , even though it
was presented to Court, is alone enough to warrant
reversal.
The Ninth Circuit follows the Schwarzenegger
test when determining the appropriateness of the
exercise personal jurisdiction. Both the District Court
and the Ninth Circuit applied Schwarzenegger in this
case. Pet.App. 2a; 8a-9a; 23a-26a. Schwarzenegger
consists of a three-part test. Schwarzenegger v. Fred
Martin Motor Co., 374 F.3d 797, 802 (9th Cir. 2004).
First, the non-resident defendant must “purposefully
direct his activities or consummate some transaction
with the forum or resident thereof; or perform some
act by which he purposefully avails himself of the
privilege of conducting activities in the forum,” which
invokes the benefits and protections of the forum’s
laws. Id. The second prong states that “the claim must
be one which arises out of or relates to the defendant’s
forum related activities[.]” Id. Finally, the third prong
states that the exercise of the court’s jurisdiction must
comport with the notions of fair play and substantial
justice. Id. In order for a federal court in the Ninth
Circuit to exercise jurisdiction over an out-of-state
defendant, all three prongs must be satisfied. See id.
at 807. The first two prongs require reconsideration in
light of the Court’s ruling in Bristol-Myers.
a. In Light of Bristol-Myers, the First
Schwarzenegger
Prong
Defines

30
“Purposeful
Broadly.

Availment”

too

The first Schwarzenegger prong requires either
“purposeful availment” or “purposeful direction.” Id.
at 802. The court explains that these are two distinct
concepts, and that a purposeful availment analysis is
more appropriate in suits sounding in contract. Id. In
describing the concept of purposeful availment, the
Schwarzenegger Court stated that a plaintiff can show
that a defendant “executed or performed a contract
there.” Id. This standard is no longer sufficient after
this Court’s ruling in Bristol-Myers.
The mere fact that a defendant executes or
performs a contract in a forum is clearly insufficient
to establish jurisdiction over the defendant when the
executed or performed contract has no connection to
the forum. See Bristol-Myers, 137 S.Ct. at 1781 (“what
is needed…is a connection between the forum and the
specific claims at issue”). Likewise, the mere fact that
a defendant entered into a contract with a California
resident, even if the California resident was present
in California when he or she executed the contract, is
insufficient to establish jurisdiction over the
defendant. See id. at 1783 (“The bare fact that BMS
contracted with a California distributor is not enough
to establish personal jurisdiction in the state.”).
This Court’s command in Bristol-Myers is clear.
To establish personal jurisdiction over an out of state
defendant, there must be an affiliation between the
forum and the underlying controversy. Id. at 1781.
Without that connection, between the facts giving rise

31
to the suit and the forum, “specific jurisdiction is
lacking regardless of the extent of a defendant’s
unconnected activities in the State.” Id. Thus, the
broad holding of the Schwarzenegger court that the
execution or performance of a contract within the
forum is sufficient to subject oneself to the jurisdiction
of the forum, lacks the nuanced determination of
whether those connections give rise to the suit
required by Bristol-Myers.
b. Schwarzenegger’s Second Prong
Also Ignores the Holding in BristolMyers.
Schwarzenegger’s second prong requires that
the claim arise out of or relate to the defendant’s
forum-related activities. Schwarzenegger, 374 F.3d at
802. This language is broader than the mandate of
Bristol-Myers and therefore this prong runs afoul of
this Court’s precedent. As noted above, Bristol-Myers
clearly restricts the exercise of jurisdiction to those
claims that result directly from the forum contacts
related to the suit. Bristol-Myers, 137 S.Ct. at 1781.
Unrelated contacts, no matter how deep or plentiful,
are insufficient to bestow personal jurisdiction on an
out-of-state defendant. Id.
As discussed, the first prong of Schwarzenegger
is met, in a contract case, when the defendant
executes or performs a contract within the state. See
Schwarzenegger, 374 F.3d at 802. That prong does not
ask whether the contacts constituting “purposeful
availment” relate to the suit. See id. When the second
Schwarzenegger prong asks if the claim arises from

32
the defendant’s forum related activities, it broadly
relates to the activities that satisfy the first prong. Id.
Thus, under Schwarzenegger, the second prong may
be satisfied even when the activities that satisfy the
first prong do not relate to the claims in the lawsuit,
as a lawsuit can indeed arise out of non-suit related
forum contacts. Because a plaintiff could satisfy this
second prong with a causal connection to the
defendant’s forum related activities, but not
necessarily to forum related activities related to the
claim, this prong is incompatible with this Court’s
precedents.
B. As This Case Shows, This Court’s
Intervention Is Necessary to Clarify when
a
Court
May
Exercise
Personal
Jurisdiction
Over
an
Out-of-State
Defendant in a Breach of Contract Case.
Unlike the contract in Burger King, in this case,
the factual issue of the alleged breach (failing to give
Respondent his finder’s fee for Petitioners’ signing of
Browner) did not grow directly out of a contract that
had substantial connection with California. To the
contrary, this alleged contract had zero connection
with anything in California. The only connection to
California was a tangential allegation that Petitioners
and Respondent had an alleged agreement to attempt
to, at some future and undefined time, do business
with California players.
However, the alleged breach had nothing to do
with that alleged agreement to recruit California
players. This alleged breach arose out of an
introduction in Colorado of a player from Oregon.

33
Years later, this Colorado introduction resulted in a
contract for Browner to work in Washington State.
The signing of the SRA between Browner and
Petitioners took place while Browner was in Canada
and Petitioners were in Colorado. The signing of the
SRA is the key event, without it, Petitioners had no
contractual obligation to issue payment to
Respondent. Respondent, who is not a party to the
SRA, could have been domiciled anywhere in the
world at the time Browner and Petitioners signed the
SRA; he just happened to be domiciled in California at
the time. Thus, the only connection with the forum
was the fortuitous circumstance of Respondent’s
residence. California has no relationship in this
context to Schaffer and Authentic Athletics.
The factors the District Court and the 9th
circuit used in order to establish some sort of
connection to California are exactly the type of
contacts unrelated to the suit that Bristol-Myers
precludes. The fact that there was a discussion and
allegedly an agreement for Petitioners to enter the
California market in the future, or that the goal of
Respondent’s recruitment activities was to allow
Petitioners to enter the California market has
absolutely no relevance to this suit. This suit would
have arisen even if it were clear that there was not a
contract to attempt to get work in California. That is
why the purported contacts with California are
insufficient to establish personal jurisdiction.
A hypothetical illustrates how the District
Court’s consideration of a purported agreement to
work the California market cannot support personal
jurisdiction in this case. Suppose the parties had an

34
explicit business agreement, whereby Petitioner
would pay Respondent a finder’s fee for each player
Respondent helped become a client of Petitioner. In
this hypothetical, let us say that Petitioner knew that
Respondent lived in California and entered into this
agreement with the explicit intent of signing players
from California. Respondent then goes to Las Vegas,
Nevada for vacation, where he meets a potential
client, who lives in Nevada. During the course of the
vacation Respondent persuades this player to sign an
SRA with Petitioner, and the player does so.
Petitioner then does not pay the agreed fee to
Respondent, who then brings suit in California to
enforce the contract. These facts clearly would not
support jurisdiction in California. The fact that there
was an ostensible agreement to recruit in California
and to sign players out of California is not a contact
that relates to the basis of the lawsuit, which is the
failure to pay a specific fee arising out of a different
forum. See Bristol-Myers Squibb, 137 S.Ct. at 1781.
As the above hypothetical shows, by
considering Petitioners’ alleged general contacts with
Respondent and the forum, the District Court has
essentially declared it has jurisdiction over the
Petitioner for any dispute that may arise between the
business relationship between the parties. Such a
finding establishes an impermissible quasi-general
jurisdiction over Petitioner, in violation of the due
process guarantees of the United States Constitution.
See Bristol-Myers Squibb 137 S.Ct. at 1781. At the
very least, this Court should reverse the Ninth Circuit
and remand to that court to consider whether the
District Court’s factual findings are sufficient as a

35
matter of law to establish personal jurisdiction under
Bristol-Myers.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
NICHOLAS JAMES DEAVER
Counsel of Record
WHEELER LAW, P.C.
5690 DTC BOULEVARD,
SUITE 240E
GREENWOOD VILLAGE, CO
80111
(303) 221-2787
nicholas@wheeler5280.com
Counsel for Petitioners
SEPTEMBER 2020

